 

JONES DAY

51 LOUISIANA AVENUE, N.W. + WASHINGTON, D.C. 20001,2113
TELEPHONE: +1.202.879.3939 + FACSIMILE: +1.202.626.1700

September 16, 2019
VIA HAND DELIVERY

The Honorable Scott S. Harris
Clerk of the Court

Supreme Court of the United States
One First Street NE

Washington, DC 20543

Re: Moss v. Atkinson
Dear Mr. Harris:

Under Supreme Court Rule 22.1, I kindly request that you transmit the
enclosed Application for Extension of Time to File a Petition for Writ of Certiorari
and the accompanying attachment to the Honorable John G. Roberts, Jr., Chief
Justice of the Supreme Court of the United States and Circuit Justice for the
Fourth Circuit. One original and two copies are enclosed.

Please contact me at (202) 879-7622 if you have any questions or concerns
regarding this submission.

Sincerely,
} 2

A Meee ¥

 

Lawrence D. Rosenberg

Enclosures

ALKHOBAR + AMSTERDAM * ATLANTA + BEIJING * BOSTON * BRISBANE * BRUSSELS + CHICAGO * CLEVELAND * COLUMBUS * DALLAS.
DETROIT * DUBAI + DUSSELDORF + FRANKFURT * HONGKONG + HOUSTON + IRVINE + JEDDAH * LONDON * LOS ANGELES * MADRID
MEXICO CITY * MIAMI + MILAN * MINNEAPOLIS * MOSCOW * MUNICH * NEWYORK + PARIS + PERTH + PITTSBURGH * RIYADH
SAN DIEGO * SAN FRANCISCO * SAO PAULO * SHANGHAI * SILICON VALLEY * SINGAPORE * SYDNEY + TAIPEI + TOKYO * WASHINGTON.

 
